No.
«9‘

IN THE SUPREME COURT OF THE
UNITED STATES
Appeals Court No. 2019-P-1133

CAMILLE T. MATA,
Petitioner,
v.
MASSACHUSETTS COMMISSION AGAINST
DISCRIMINATION,
Respondent.

On Petition for a Writ of Certiorari to the
Appeals Court of the Commonwealth of Massachusetts

CERTIFICATE OF SERVICE

Pursuant to the U.S. Supreme Court orders of April 15, 2020 and March
19, 2020, Petitioner, Camille T. Mata, hereby certifies that on December
31, 2020, one original Petition for Certiorari is submitted to the U.S.
Supreme Court Office of the Clerk of Court at One First Street, NE,
Washington DC. 20543 by priority mail and one copy to Attorney Kristen
Dannay for Massachusetts Commission Against Discrimination at 436
Dwight Street, Rm. 220, Springfield, MA. 01103 by priority mail and by
e-mail within the 150 day deadline from the decision of the
Massachusetts Supreme Judicial Court on October 2, 2020.
^^Respectfully,
*

Camille Tuason Mata, pro se

o

